           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:    INFORMATION: Quality Control Review                        Date:   January 27, 2003
            of Audited Financial Statements
            for Fiscal Year 2002, TSA
            QC-2003-016
                                                                    Reply To
  From:     Kenneth M. Mead                                         Attn Of:   Meche:x61496
            Inspector General

    To:     The Secretary
            Under Secretary of Transportation for Security

           The audit of the Transportation Security Administration (TSA) Financial
           Statements as of and for the period ended September 30, 2002, was completed by
           KPMG LLP (KPMG) of Washington, D.C. We performed a quality control review
           of the audit work to determine compliance with applicable standards. These
           standards include the Chief Financial Officers Act, Government Auditing
           Standards, and Office of Management and Budget Bulletin 01-02, Audit
           Requirements for Federal Financial Statements.

           The KPMG audit report rendered an unqualified opinion on the TSA financial
           statements. The report included five material internal control weaknesses, one
           reportable internal control condition, and one material noncompliance with
           accounting laws and regulations. KPMG made 18 recommendations for corrective
           actions (see Attachment). We agree with the KPMG recommendations. We are
           requesting that, within 15 days, TSA specify actions taken and planned, along with
           estimated completion dates for planned actions.

           In our opinion, the audit work performed by KPMG complied with applicable
           standards. Therefore, we are not making any additional recommendations.

           We appreciate the cooperation and assistance of TSA and KPMG representatives.
           If we can answer any questions, please call me at (202) 366-1959, or John Meche
           at (202) 366-1496.

           Attachment

                                                   #
                                                                   ATTACHMENT
                                                                        (3 pages)
               KPMG RECOMMENDATIONS ON ITS AUDIT
                  OF TSA FINANCIAL STATEMENTS


Recommendation 1

Hire an adequate number of qualified accounting personnel to fill the positions in
TSA's Financial Reporting office.

Recommendation 2

Consider setting up a bi-weekly reporting and control mechanism that allows the
on-site TSA supervisors to prepare a list of their separated employees for a given
pay period on a list that is then matched against payroll files in order to withhold
payment against those separated employees until such time that CPMIS reflects
the separations.

Recommendation 3

Coordinate with DOT to revise technical support staff's access to the absolute
minimum level necessary for them to perform the duties associated with
operational functions, programs, and files, and to provide supervisory review of
any access remaining through audit logs of technical support staff activities.

Recommendation 4

Request DOT to remove application programmer access to production programs
and datasets, review the Resource Access Control Facilities logs for those inactive
group members to determine the necessity of the account, and change the access
level of the non-programmer members of the test programming group.

Recommendation 5

Develop and perform a risk assessment process based on an operational
environment that clearly defines security requirements that can be tied to security
plans and corresponding security tests and evaluation activities.

Recommendation 6

Describe in sufficient detail controls in place based on TSA's implementation of
IPPS and Delphi into an operational environment and what security requirements
are being addressed through those controls given the nature and extent of
significant control deficiencies identified.
Recommendation 7

Test actual effectiveness of security controls through a comprehensive security test
and evaluation process.

Recommendation 8

Establish a self-assessment process to continually monitor internal control and
accounting systems in order to comply with the reporting requirements of FMFIA.

Recommendation 9

Establish policies and procedures related to fixed assets to ensure that assets are
recorded in the financial statements on a timely basis. Ensure that the property
accountability/logistics department maintains adequate and timely records of
inventories and property additions/disposals and that this information is
communicated to the accounting department on a timely basis for inclusion into
the financial records. Conduct a complete physical inventory of its property and
equipment.

Recommendation 10

Implement written accounts payable policies and procedures to ensure that
communication between departments is adequate to ensure that liabilities recorded
are complete, accurate, and recorded in a timely manner.

Recommendation 11

Establish procurement policies and procedures to ensure that accurate and
complete accounting information is included on obligating documents so that all
transactions are recorded on a timely basis.

Recommendation 12

Reemphasize its capitalization policies and procedures to ensure property
purchases are appropriately capitalized.

Recommendation 13

Establish proper accounts receivable procedures to accrue air carrier and passenger
security fees throughout the year for financial reporting purposes.
Recommendation 14

Establish a process to monitor its leasing arrangements and obligations in order to
comply with the financial statement disclosure requirements.

Recommendation 15

Implement policies and procedures to ensure that all grant activity is properly
accounted for. In addition, TSA should properly monitor the grants that they have
disbursed.

Recommendation 16

Separate an amount of contract award dollars to fund oversight activities that
enforce verification of cost and pricing data, specifically, data used to support
loaded labor rates. In addition, require contractors to submit proposals and cost
pricing data, as well as definitize the screener contracts.

Recommendation 17

Implement a mechanized time and attendance (T&A) system to ensure that all
T&A information is properly recorded in the system. Supervisors or screening
managers should approve a screener's T&A information before it is recorded in the
Integrated Personnel and Payroll System (IPPS) and an approving official should
perform an additional independent check after time is input into IPPS, ensuring
that the time recorded in IPPS matches the employee's T&A information.
Additionally, ensure that adequate documentation is retained.

Recommendation 18

Work aggressively to implement procedures to ensure compliance with the
applicable Federal accounting standards and the usage of the standard general
ledger at the transactional level.
